COMMONWEALTH OF PENNSYLVANIA
PHILADELPHIA COUNTY

PARS
DC#: 18-14-101054
Dckt/MC#: MC51-CR-0000720-2019
Date: Jan 04,2019
Complaint: CQM-0006622-2018

Criminal Complaint

Felony

Copy

COMMONWEALTH OF PENNSYLVANIA VS. CHARLES TALBERT
I, the undersigned, do hereby state under oath or affirmation:
(1) My name is: MATTHEW CAREY MATTHEW Southwest Detectives Division
(2) I accuse CHARLES TALBERT
who lives at 143 W PRICE ST PHILADELPHIA', PA 19144
with violating the Penal Laws of Pennsylvania on or about Saturday, December 01, 2018
in the county of Philadelphia.
(3) The acts committed by the accused were:
°F GERMANtOWN AVENUE, THE DEFENDANT TOOK OR REMOVED MONEY FROM A
FINANCIAL INSTITUTION, TD BANK, WITHOUT PERMISSION BY MAKING A DEMAND OF AN EMPLOYEE ORALLY OR IN
WRITING WITH THE INTENT TO DEPRIVE THE FINANCIAL INSTITUTION THEREOF.
UKALLY OR iN

In violation of Pennsylvania Penal Laws, section(s) and title(s)
CHARGES:
Code

Grade

Description

Counts

CC3701

F2

ROBBERY

CC3921

F3

THEFT-UNLWF TAKING

CC3925
CC0907

F3 •
M1

THEFT-RSP
pic

CC2706

M1

TERRORISTIC THREATS

001
001
001
001
001

All of which is against the peace and dignity of the Commonwealth of Pennsylvania
(4) I ask that a warrant of arrest or a summons be issued and that the accused be required to answer the
charges I have made. This complaint has been reviewed and approved by A.D.A. BRIAN BURKE
(5) I swear to or affirm the within complaint upon my knowledge, information and belief, and sign it on
before Philadelphia Municipal Court Judge/Arraignment Court Magistrate.

JVt'.
$

r-Jri

m

Signature of Arraignment Court Magistrate.

Signature of Affiant

the frowsier* cfthe Pubfc Aaress
fblcy d the Lfriifisf -Judicial System if T^qft^vania! Qse Records of the Appsfbte anct Tnal Courts that
retpine Mirtg canfidenM irtfcrmaticn and documents dffer&tlythan nan^cnteential mfcrmsticn and

On 01/04/2019 , the above named affiant swore or affirmed that the facts set forth in the complaint were true and
correct to the best of his/her knowledge, information and belief, and signed it in my presence. I believe the
within affiant to be a responsible person and that there is probable cause for the issuance of process.

CHARLES TALBERT

DC#: 1814101054

Page 1 of 1

Printed: 01/09/2019 08:01 AM

\
i

COMMONWEALTH OF PENNSYLVANIA
PHILADELPHIA COUNTY

PARS
DC#: 18-09-050269
Dckt/MC#: MC51 -CR-0000719-2019
Date: Jan 04,2019
Complaint: CQM-0006623-2018

Criminal Complaint

Copy

Felony

COMMONWEALTH OF PENNSYLVANIA VS. CHARLES TALBERT
I, the undersigned, do hereby state under oath or affirmation:
(1) My name is: MATTHEW CAREY MATTHEW Southwest Detectives Division
(2) I accuse CHARLES TALBERT
who lives at 143 W PRICE ST Philadelphia, PA 19144
with violating the Penal Laws of Pennsylvania on or about Thursday, November 29, 2018
in the county of Philadelphia.
(3) The acts committed by the accused were:
AT OR NEAR THE 1600 BLOCK OF MARKET STREET, THE DEFENDANT ATTEMPTED TO TAKE MONEY FROM A FINANCIAL
INSTITUTION, PNC BANK, WITHOUT PERMISSION BY MAKING A DEMAND OF AN EMPLOYEE ORALLY OR IN WRITING
WITH THE INTENT TO DEPRIVE THE FINANCIAL INSTITUTION THEREOF.

In violation of Pennsylvania Penal Laws, section(s) and title(s)
CHARGES:
Code

Grade Description

Counts

CC3701

F2

CC3921

F3

Attempt to commit THEFT-UNLWF TAKING

001

CC3925

Attempt to commit THEFT-RSP

001

CC0907

F3
M1

PIC

001

CC2706

M1

TERRORISTIC THREATS

001

ROBBERY

001

All of which is against the peace and dignity of the Commonwealth of Pennsylvania
(4) I ask that a warrant of arrest or a summons be issued and that the accused be required to answer the
charges I have made. This complaint has been reviewed and approved by A.D.A. BRIAN BURKE
(5) I swear to or affirm the within complaint upon my knowledge, information and belief, and sign it on
before Philadelphia Municipal Court Judge/Arraignment Court Magistrate.

mm

m

‘cWV '

m'll

Signature of Arraignment Court Magistrate.
Signature of Affiant
Ctmmany^alth’s^epmsenitatJvej ui mrtffytbat.this, filing complies \wth the prousicne: of the Public Access
tolicy cf tbe .Unified JudiaaT.Systsra dF ffenre^vaniai Case RetDufc of ihe Appellate sridTnal.Gburis that
■ require filing confidential infiormaticn and documents dfferentlythan ncn-ccnfidentjalinfirmaticn and
t£otm?ris."
.........
J

On 01/04/2019 , the above named affiant swore or affirmed that the facts set forth in the complaint were true and
correct to the best of his/her knowledge, information and belief, and signed it in my presence. I believe the
within affiant to be a responsible person and that there is probable cause for the issuance of process.

CHARLES TALBERT

DC#: 1809050269

Page 1 of 1

Printed: 01/09/2019 08:02 AM

r

S'

* :

i.

AFFIDAVIT OF PROBABLE CAUSE

Commonwealth of Pennsylvania
County of Philadelphia

Copy

Affiant:

Warrant Control

DET MATTHEW CAREY MATTHEW 9225 Southwest Detectives Division

ler:

AFF-0006622-2018

the aforementioned bank robberies. Investigators believe the individual depicted in the surveillance jahc5l
Charles Talbert.
'

ihaisslhat of

UeNrom the PNCa
On Tuesday, December 11, 2018, at 10:46AM, Detective McCusker #9058 and I showed the yfbtii
Robbery a six (6) person photo array that included Charles Talbert. The victim/teller was unajble to mal ah identification.
lank Robbery
On December 11, 2018, at 11:24AM, Detective McCusker #9058 and I showed the victim/tetter ftsyi the
a six (6) person photo array that included Charles Talbert. The victim/teller was unabte4©-4nak^n
Ifidation.
IF THE
I CERTIFY THAT THIS FILING COMPLIES WITH THE PROVISIONS OF THE PUBWC ACCESS! POCSC
llRTS THAT
UNIFIED JUDICIAL SYSTEM OF PENNSYLVANIA CASE RECORDS OF THE AlfPpLLATE AfYDyTRIAL
REQUIRE FILING CONFIDENTIAL INFORMATION AND DOCUMENT:
er&nYly ThanMin-confidential
INFORMATION AND DOCUMENTS.
X

I, THE AFFIANT, BEING D5ULY<
AFFIDAVIT ARE TRUEfAlfcJD/CC
1ST EXISTS,
CAUSE TO
Affiant/

WORN ACCORDING TO LAW, DEPOSE AND SAY THAT THE FACTS SET FORTH IN THE
RECT TO THE BEST OF MY KNOWLEDGE, INFORMATION AND BELIEF AND THAT PROBABLE

•T MATTHEW vAREY MATTHEW 9225 Southwest Detectives Division

Sworn t<5 or affirmed ancksifoscribed before me this 4 day of January ,2019

i

Affiant Signature
CHARLES TALBERT

Issuing Authority Signature
Page 3 of 3 Pages

Printed: 01/04/2019 01:25 PM

Commonwealth of Pennsylvania
Philadelphia Municipal Court

WARRANT OF ARREST

-

Copy

County of: Philadelphia
First Judicial District

.

COMMONWEALTH OF PENNSYLVANIA
V.
CHARLES TALBERT'

Defendant's Address(s):

Issuing Authority .

143 W PRICE ST Philadelphia, PA 19144
AC Magistrate SHEILA BEDFORD
Citation/Complaint No
Docket No
Warrant Control No
Date Citation/Complaint Filed

: COM-0006623-2018
:
: WAR-0006623-2018
: 01/04/2019

;_4

Charge(s):
Code

Grade

CC3701
CC3921
CC3925
CC0907
CC2706

F2
F3
F3
M1
M1

Description

Count
1

ROBBERY
Attempt to commit THEFT-UNLWF TAKING
Attempt to commit THEFT-RSP
PIC •
TERRORISTIC THREATS

1
1
1

Additional charges, if any, are listed on separate page

DESCRIPTIVE INFORMATION:
Race: Black

Social Security Number: 205-62-7864

• Eye Color: Brown
Hair Color: Bald

Sex: Male
Date of Birth: 03/27/1981
Telephone Number: (215)000-0000

v>

Distinguishing features (scars, tatfo.

Alias(es):

ciaLbair>disability, etc):

TO POLICE OFFICER:
In the name of the Com
the defend,
isto
Issued undec/fffylTaftd (hi

of Pennsylvania, you are commanded to take
CHARLES TALBERT,
iYopbery bank - including savings and loan and credit unions no weapon .
i^rfJanuary, 2019

Signature

CHARLES TALBERT,

DC#: 1809050269

A

s

Issuing Authority

Page 1 of 1

05070

Printed: 01/04/2019 01:26 PM

!
I

AFFIUmVIT of

Commonwealth of Pennsylvania
County of Philadelphia

©SJ

probable cause

COURT VERSION

H

Copy

Affiant:

Warrant Control Number:

DET DIANE NELSON DIANE S26 Northwest Detectives Division

AFF-0000070-2019

PROBABLE CAUSE BELIEF IS BASED UPON THE FOLLOWING FACTS AND CIRCUMSTANCES:
1. That after investigation I have probable cause to believe that a warrant of arrest should be issued ton
Defendant Name: CHARLES P TALBERT

Gender: M

Race: Black

Alias:

Address: 143 w PRICE ST Philadelphia, PA 19144
CHARGES:
DC Number

Code

1814107446

CC3701
CC2706
CC2705

Grade
F1
M1
M2

Count

Description
ROBBERY
TERRORISTIC THREATS
REAP

^

1
1

-v
)

1

2. That the facts tending to establish the grounds for the issuance of the warrant of arrest and the probable cause for my belief
are as follows:
(Note: if .extended text exists, see following page(s))

I, THE AFFIANT, BEING DULY SWORN ACCORDING TO LAW. DEPOSE AND SAY THAT THE FACTS SET FORTH IN THE AFFIDAVIT
ARE TRUE AND CORRECT TO THE BEST OF MY KNOWLEDGE, INFORMATION AND BELIEF AND THAT PROBABLE CAUSE TO
ARREST EXISTS.
Affiant: DET DIANE NELSON DIANE 626 Northwest Detectives Division
Sworn to or affirmed and subscribed before me this 9 day of January, 2019

m

jk^
Affiant Signature

Issuing Authority Signature

*Ssss&J>
CHARLES P TALBERT

Page 1 of 2 Pages

Printed: 01/19/2019 12:25 AM

AFFIDAVIT OF PROBABLE CAUSE

Commonwealth of Pennsylvania
County of Philadelphia

Copy
Affiant:

Warrant Control Number:

DET DIANE NELSON DIANE 626 Northwest Detectives Division

AFF-0000070-2019

1814107446

The complainant states, in summary, that on 12/22/18 at 10:53am, while working the cash register at the Kentucky Fried
Chicken located on the 6200 block of Stenton Ave., the offender approached her and threw a demand note over the front
counter in her direction. The complainant asked, "What's this?" and the offender replied, "If you don't give me the money,
I'll kill you!". The complainant states the offender had his jacket pulled up to his face covering his mouth, and she had
difficulty understanding him. She asked the Offender three times what he said, and on the third time the offender stated,
"If you don't open the register, I'm gonna kill you!" The complainant then ran to the back of the restaurant and informed
witness #1, her boss, of what happened. The complainant and witness #1 then ran to the front of the store, and observed
the offender fleeing the location Southbound on Stenton Ave., though a 'Pep Boys’ parking lot towards Tulpehocken St.
Witness #1 then got into his vehicle, and followed the offender to the 1300 block of E. Tulpehocken St. where he used his
cell phone and recorded the offender talking to an older black male outside of a dark blue Saturn, with a PA tag
#JJK-5001. Witness #1 then left the location and flagged down P/O Gomes #3203 and P/O Samarco #3558 in the area
/ of Stenton Ave. and Barringer St. and-Informed them of the robbery.
NWDD responded to location of occurrence, photographed the scene, and interviewed the complainant and witness #1.
The scene could not processed because it had been contaminated. A demand note, written on what appears to be a
pieceof a brown paper bag that read, "Give me 5k or I'm gonna kill you," was recovered from the front counter of the
restaurant. This was placed on PR #3377360 and submitted to City Hall. Witness #1 provided the assigned with the
video from his cell phone of the offender.
On 12/27/18, P/O Gomes and P/O Samarco were on patrol in the area of 6200 Stenton Ave. when they observed the blue
Saturn PA #JJK-5001 they recognized from the video recorded by witness #1. They stopped the vehicle for investigation,
at which time they recognized the operator of the vehicle as the male speaking to the offender in the video. The operator,
witness #2, provided the officers with his recollection of his encounter with the offender on 12/22/18 that was captured on
. video by witness #1. He informed the officers that he knows the offender from living in the same neighborhood as him,
and that the offender goes by the name of "Charlie." Witness #2 informed the officers that "Charlie" approached him and
asked him for a ride. Witness #2 then observed witness #1 recording them with his cell phone. He declined to give
"Charlie" a ride, and went inside his residence.
With this information, P/O Gomes and P/O Samarco searched a prior offender search database using the offender's
physical description with addresses in the 14th district and were able to produce a suspect, Charles Talbert 03/27/81, that
matched the physical description of the offender from the video footage taken by witness #1. This information was
provided to the assigned. The assigned attempted to contact witness #2 for an interview, with negative results.
Meanwhile, the assigned submitted a facial recognition request to the Pennsylvania Criminal Intelligence Center using a
screenshot of the offender obtained from witness #1's video. The results implicated Charles Talbert 03/27/81 as a
possible suspect.
The.assigned then created 2 photo arrays, each containing a photograph of Charles Talbert 03/27/81 to be viewed by the
complainant and witness #1. On 12/28/18, at 11:50am, Det. Funk #680 administered the two separate photo arrays to
the complainant and witness #1 inside the KFC located on the 6200 block of Stenton Ave. The complainant was unable
to make a positive identification. However, witness #1 positively identified Charles Talbert 03/27/81 as the offender that
committed the robbery on 12/22/18 at the Kentucky Fried Chicken located on the 6200 block.of Stenton Ave., whom he
followed and recorded on his cell phone.
I certify that this filing complies with the provisions of the Public Access Policy of the Unified Judicial System of
Pennsylvania: Case Records of the Appellate and Trial Courts that require filing confidential information and documents
differently than non-confidential information and documents.

I, THE AFFIANT, BEING DULY SWORN ACCORDING TO LAW, DEPOSE AND SAY THAT THE FACTS SET-FORTH IN THE
AFFIDAVIT ARE TRUE AND CORRECT TO THE BEST OF MY KNOWLEDGE, INFORMATION AND BELIEF AND THAT PROBABLE
CAUSE TO ARREST EXISfS.
Affiant: DET DIANE NELSON DIANE 626 Northwest Detectives Division
Sworn to or affirmed and subscribed before me this 9 day of January , 2019

Affiant Signature
CHARLES P TALBERT

Issuing Authority Signature
Page 2 of 2 Pages

Printed: 01/09/2019 04:20 PM

i

uOMMONWEALTH OF PENNSYLVANIA
PHILADELPHIA COUNTY

M

PARS
DC#: 18-14-107446
Dckt/MC#: MC51-CR-0001736-2019
Date: Jan 09,2019
Complaint: CQM-0000070-2019

Criminal Complaint

Copy

Felony

COMMONWEALTH OF PENNSYLVANIA VS. CHARLES P TALBERT
I. the undersigned, do hereby state under oath or affirmation:
(1) My name is: DIANE NELSON DIANE Northwest Detectives Division
(2) I accuse CHARLES P TALBERT
who lives at 143 W PRICE ST Philadelphia, PA 19144
with violating the Penal Laws of Pennsylvania on or about Saturday, December 22, 2018
in the county of Philadelphia.
(3) The acts committed by the accused were:
ON 12-22-2018 AT OR NEAR 6200 STENTON AVENUE. IN THE COURSE OF COMMITTING A THEFT, THE DEFENDANT
THREATENED OR INTENTIONALLY PUT ANOTHER IN FEAR OF SERIOUS INJURY BY APPROACHING THE COMPLAINANT.
K.R. AND THREATENING TO KILL K.R. IF K.R. DID NOT OPEN A CASH REGISTER

In violation of Pennsylvania Penal Laws, section(s) and title(s)
CHARGES:
Code

Grade Description

Counts

CC3701

FI

ROBBERY

001

CC2706
CC2705

M1
M2

TERRORISTIC THREATS
REAP

001

001

All of which is against the peace and dignity of the Commonwealth of Pennsylvania
(4) I ask that a warrant of arrest or a summons be issued and that the accused be required to answer the
charges I have made. This complaint has been reviewed and approved by A.D.A. JOO KIM
(5) I swear to or affirm the within complaint upon my knowledge, information and belief, and sign it on
before Philadelphia Municipal Court Judge/Arraignment Court Magistrate.

Signature of Affiant
Signature of Arraignment Court Magistrate.
Cammqnxvea&h’s Repmsehtative! 'pcatiifythst .thisJwng tnmpiies.tuth theprowsicrs, the PiMtc Airass
ftj&yicf the Itafiai! Judicial'S^t^ etf Penreyivsnia: Cse Raairds of the.Appdfeis sndTiiaJ.Quirts that
* require &ingconfidential information anddxitritents dfrereritJy t.Han ncn^pnfidentialinformation and
documents. ’
On 01/09/2019 , the above named affiant swore or affirmed that the facts set forth in the complaint were true and
correct to the best of his/her knowledge, information and belief, and signed it in my presence. I believe the
within affiant to be a responsible person and that there is probable cause for the issuance of process.

©
CHARLES P TALBERT

DC#: 1814107446

Page 1 of 1

Printed: 01/19/2019 12:25 AM

WARRANT OF ARREST

Commonwealth of Pennsylvania
Philadelphia Municipal Court

Copy

County of: Philadelphia
First Judicial District

COMMONWEALTH OF PENNSYLVANIA

V.
CHARLES P TALBERT
Defendant's Address(s):

Issuing Authority

143 W PRICE ST Philadelphia, PA 19144
AC Magistrate KEVIN DEVLIN
Citation/Complaint No: COM-0000070-2019
Docket No:
Warrant Control No : WAR-0000070-2019
Date Citation/Complaint Filed : 01/09/2019

Charge(s):
Code

Grade. Description

CC3701
CC2706
CC2705

F1
M1
M2

Count

1
1
1.

ROBBERY
TERRORISTIC THREATS
REAP

Additional charges, if any, are listed on separate page

DESCRIPTIVE INFORMATION:
Race: Black

Age: 37

Social Security Number: 205-^4S)St

Eye Color: Brown
Hair Color: Bald

Height: 5’11
Weight: 205

Sex: Male
Date of Birth: 03/27/1981
Telephone Number: (215)000-0000

Distinguishing features (scars, tattoos, facial hair, disability, etc):

Alias(es):

TO POLICE OFFICER:
In the name of the Commonwealth of Pennsylvania, you are commanded to take
the defendant, into custody for 315 Robbery, Commercial Estab., No Weapon
Issued under my hand this 9 day ofJanuary, 2019

signature

CHARLES P TALBERT,

DC#: 1814107446

CHARLES P TALBERT,

Issuing Authority

Page 1 of 1

00040

Printed: 01/09/2019 04:20 PM

